D-2010-005                                November 3, 2009




   Information Security at the Fleet and Industrial Supply
          Center, Sigonella, Detachment Bahrain
Additional Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CNO                           Chief of Naval Operations
DASN (M&B)                    Deputy Assistant Secretary of the Navy (Management and
                                Budget)
FISCSI                        Fleet and Industrial Supply Center, Sigonella
NOFORN                        Not Releasable to Foreign Nationals
                                  INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE 

                                    400 ARM Y NAV Y DR IVE 

                             AR LI NGTON , VIR GINIA 22202-4704 





                                                                         November 3, 2009

MEMORANDUM FOR NAVAL INSPECTOR GENERAL

SUBJECT: Information Security at the Fleet and Industrial Supply Center, Sigonella,
          Detachment Bahrain (Report No. D-2010-005)


We are providing this report for review and comment. This is the first in a series of
audits on Army and Navy ship maintenance contracts. We considered management
comments on a draft of this report when preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. We
redirected draft Recommendation l.a to the Director of Contracting, Fleet and Industrial
Supply Center, Sigonella, Detachment Naples and renumbered it as Recommendation 2.c.
We added a new Recommendation l .a, which is directed to the Special Assistant for Naval
Investigative Matters and Security. We also revised Recommendation l.b. We request that
the Special Assistant for Naval Investigative Matters and Security respond to
Recommendation l.a and l.b, and the Director of Contracting, Fleet and Industrial Supply
Center, Sigonella, Detachment Naples, respond to Recommendation 2.c by November 24,
2009.

If possible, please send a .pdf file containing your comments to audacm@dodig.mil. Copies
of the management comments must contain the actual signature of the authorizing official.
We are unable to accept the /Signed/ symbol in place of the actual signature. If you arrange
to send classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9071 (DSN 664-9071).




                                              Deputy Assistant Inspector General
                                              Acquisition and Contract Management
Report No. D-2010-005 (Project No. D2009-D000AS-0163.000)                    November 3, 2009


               Results in Brief: Information Security at the
               Fleet and Industrial Supply Center, Sigonella,
               Detachment Bahrain

What We Did                                                    initiate corrective actions to ensure that
                                                                all future classified documents are
This is the first in a series of reports on Army                properly marked.
and Navy ship maintenance contracts. The
overall objective was to determine whether              The Director of Contracting, Fleet and Industrial
contracts providing ship repair and maintenance         Supply Center, Sigonella, Detachment Naples
to the U.S. Army operations in Kuwait and               (FISCSI Det Naples) ensure that FISCSI Det
Navy operations in Bahrain and United Arab              Bahrain:
Emirates were properly managed and
administered. We are issuing this report in                 		 provide training to personnel at FISCSI
order to address an information security issue at               Det Bahrain on DOD and Navy
the Fleet and Industrial Supply Center,                         information security policies to ensure
Sigonella, Detachment Bahrain (FISCSI Det                       that personnel know how to handle
Bahrain). Subsequent reports will address the                   classified information,
audit objective.
                                                            		 review all contract files to ensure that
What We Found                                                   they do not contain classified
We identified internal control weaknesses in                    information and documentation and take
controlling and securing classified information                 appropriate action to control and secure
at FISCSI Det Bahrain.                                          any classified information found, and

U.S. Navy personnel did not follow DOD                      		 investigate the compromise of classified
Regulations on handling classified                              information
documentation. Specifically, the Office of the
Chief of Naval Operations (CNO) did not                 Management Comments and
correctly mark the documents with a                     Our Responses
declassification date, and FISCSI Det Bahrain
                                                        The Deputy Assistant Secretary of the Navy
personnel stored classified documents in
                                                        (Management and Budget) responded for the
unclassified files that they did not safeguard or
                                                        Special Assistant for Naval Investigative
mark properly.
                                                        Matters and Security, and the Director of
                                                        Contracting, FISCSI Det Naples. We redirected
What We Recommend                                       and renumbered draft Recommendation 1.a to
The Special Assistant for Naval Investigative           2.c. We added a new Recommendation 1.a and
Matters and Security:                                   revised draft Recommendation 1.b. We request
                                                        that the Special Assistant for Naval
    		 determine who the original                      Investigative Matters and Security and FISCSI
        classification authority is and provide         Det Naples provide comments on the final
        this information to FISCSI Det Bahrain          report by November 24, 2009. See the
        and                                             recommendations table on page ii.


                                                    i
Report No. D-2010-005 (Project No. D2009-D000AS-0163.000)             November 3, 2009

Recommendations Table

Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Special Assistant for Naval      1.a and 1.b
Investigative Matters and
Security
Director of Contracting, Fleet   2.c                        2.a and 2.b
and Industrial Supply Center,
Sigonella, Detachment Naples

Please provide comments by November 24, 2009




                                          ii
Table of Contents

Introduction	                                                                     1


       Objectives                                                                 1

       Background                                                                 1

       Review of Internal Controls                                                2


Finding. Classified Information in the Fleet and Industrial Supply Center, 

Sigonella, Detachment Bahrain                                                     3



       Management Actions                                                         5

       Management Comments on the Finding and Our Response                        6

       Recommendations, Management Comments, and Our Response                     6


Appendices

       A. 	Scope and Methodology                                                 10 

       B. 	Action Memorandum to Fleet and Industrial Supply Center, Sigonella,   

           Detachment Naples                                                     11 


Management Comments

       Office of the Assistant Secretary of the Navy (Management and Budget)     12 

Introduction
Objectives
This is the first in a series of reports on Army and Navy ship maintenance contracts. The
overall objective was to determine whether contracts providing ship repair and
maintenance to the U.S. Army operations in Kuwait and Navy operations in Bahrain and
United Arab Emirates were properly managed and administered. The audit series will
include reports on the contracts we reviewed in the Fleet and Industrial Supply Center,
Sigonella, Detachment Bahrain (FISCSI Det Bahrain); U.S. Naval Sea Systems
Command; and the U.S. Army. See Appendix A for a discussion of our scope and
methodology.

The audit team identified an information security issue at FISCSI Det Bahrain. We
issued a memorandum (Appendix B) identifying the seriousness of this issue and required
action; however, FISCSI Det Bahrain personnel had not implemented the necessary
improvements. Although the original objective did not include information security, we
determined that further notification and reporting was warranted. The potential impacts
of not protecting classified information on U.S. national security are severe. We are
issuing this report to address the information security issues at FISCSI Det Bahrain in a
timely manner.

Background
The Naval Supply Systems Command
The Naval Supply Systems Command manages supply chains that provide material for
Navy aircraft, surface ships, submarines, and their associated weapons systems. The
Commander, Fleet and Industrial Supply Centers reports to the Naval Supply Systems
Command.

Commander, Fleet and Industrial Supply Centers
Under the Naval Supply Systems Command; the Commander, Fleet and Industrial Supply
Centers, functions as a global provider of integrated supply and support services to fleet
units and shore activities. The Commander, Fleet and Industrial Supply Centers, is
responsible for establishing common policies and procedures of the worldwide network
of the seven Fleet and Industrial Supply Centers, including the Fleet and Industrial
Supply Center, Sigonella, Italy.

Fleet and Industrial Supply Center, Sigonella
The Fleet and Industrial Supply Center, Sigonella (FISCSI) is located at the Naval Air
Station Sigonella, Italy, and provides logistics, business, and support services to the
Navy, Coast Guard, and Military Sealift Command, as well as other joint forces. FISCSI
delivers direct logistical support to various locations including Dubai and Jebel Ali within
the Emirate of Dubai and Bahrain. FISCSI oversees the FISCSI, Detachment Naples
(FISCSI Det Naples).


                                             1

FlSCSI Det Naples
FISCSI Det Naples has detachments in London, Bahrain, and the Emirate of Dubai
to provide contracting support for U.S. forces throughout Europe, the Mediterranean,
Africa, and Southwest Asia.

FISCSI Det Bahrain
FISCSI Det Bahrain is located at the Naval Support Activity in Manama, Bahrain. The
mission of FISCSI Det Bahrain is to provide fleet support for U.S Navy, Military Sealift,
and Coast Guards ships operating in the 5th Fleet area of responsibility as well as base
support for naval installations in the Middle East. FISCSI Det Bahrain reports to FISCSI
Det Naples. The workforce at FISCSI Det Bahrain consists of 3 military service
members, 5 U.S. civilians, and 12 foreign nationals. FISCSI Det Bahrain administers
some of the Navy contracts in our audit sample.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We determined that FISCSI
Det Bahrain did not have adequate internal controls for controlling and securing
classified information. Implementing the recommendations in the Finding will help to
prevent compromising classified information at FISCSI Det Bahrain. We will provide a
copy of the report to the senior official responsible for internal controls at Naval Supply
Systems Command, FISCSI Det Naples, and to the Special Assistant for Naval
Investigative Matters and Security.




                                             2


Finding. Classified Information in the Fleet
and Industrial Supply Center, Sigonella,
Detachment Bahrain
FISCSI Det Bahrain personnel stored classified documents in unclassified files that they
did not safeguard or mark properly because FISCSI Det Bahrain personnel did not follow
DOD Regulations on handling classified information. In addition, Chief of Naval
Operations (CNO) officials did not properly mark the documents with a declassification
date. As a result, foreign nationals and other employees had access to classified
information. Unauthorized access to classified documentation can compromise national
security and increase risk to the warfighter.

Safeguarding of Classified Information
DOD Regulation 5200.1-R, “Information Security Program,” January 1997 states that
everyone granted access to classified information is responsible for properly protecting
information in their possession or control. The Regulation states that we must protect
classified information at all times by storing it in an approved device or facility or in the
possession of an authorized individual.

FISCSI Det Bahrain officials provided the contract files for contracts N49400-03-H-
A005-5024 and N49400-04-H-A501-6098 on May 25, 2009. According to FISCSI Det
Bahrain contracting officials, they retrieved the contract files from an unsecured storage
facility and placed them in the unsecured conference room. The contract files provided
to us were issued from FY 2004 through FY 2009. The Deputy Officer In Charge,
FISCSI Det Bahrain, stated that none of the contract files were locked in an approved
container or storage facility because the contracts were unclassified.

On May 28, 2009, we found a CNO memorandum and an e-mail classified
Confidential/NOFORN (not releasable to foreign nationals) in contract file N49400-03-
H-A005-5024. When we discovered the items, we attempted to inform the Officer in
Charge, FISCSI Det Bahrain. However, he was not available, so we informed the FISCSI
Det Bahrain legal counsel. The legal counsel stated that FISCSI Det Bahrain personnel
would review the contract file page by page and start an investigation into the matter.
FISCSI Det Bahrain officials secured the contract file N49400-03-H-A005-5024 in a
safe.

On May 31, 2009, we discovered another CNO memorandum and an e-mail classified
Confidential/NOFORN in contract file N49400-04-H-A501-6098. We again informed
the FISCSI Det Bahrain legal counsel and the Officer in Charge, FISCSI Det Bahrain.
We provided them with the entire contract file for their review. FISCSI Det Bahrain
secured the classified documentation in contract file N49400-04-H-A501-6098 in a room
with a lock on the door.




                                              3


FISCSI Det Bahrain personnel stated that the documentation we discovered is old, may
be declassified, and is public knowledge. We informed the FISCSI Det Bahrain Officer
in Charge that FISCSI Det Bahrain should still treat the documents as classified
information because there was not a date for declassification on the documents.
Additionally, the FISCSI Det Bahrain Officer in Charge did not create the documents and
does not have the authority to determine if the documents should be declassified. The
processes and procedures FISCSI Det Bahrain personnel use to secure and protect
classified information are ineffective. Unless Navy officials identify and correct the
faults in those procedures, we believe that similar failures will happen in the future,
which could jeopardize U.S. national security.

We obtained a copy of the memorandum and e-mails included in contract file N49400-
04-H-A501-6098. Although we requested a copy of the classified documents in contract
file N49400-03-H-A005-5024 several times, the FISCSI Det Bahrain Command Security
Officer shredded the classified documents without providing us a copy for our audit
documentation review and analysis.

Marking of Classified Information
The CNO issuing official and FISCSI Det Bahrain officials did not properly mark the
classified memoranda and e-mails with a declassification date or identify the source of
classification of the information in the document. DOD 5200.1-R requires markings that
include a declassification date and identify the source of the classified information.

Because CNO officials issued the memoranda, they were responsible for correctly
marking them. CNO officials did not mark the memoranda; therefore, we could not
determine who the original classification authority was for declassifying the information.
DOD 5200.1-R states that the Secretary of Defense, the Secretaries of the Military
Departments, and the designated original classification authority are the only personnel
that can declassify information.

We reviewed the e-mails included with the memorandum in contract file N49400-04-H-
A501-6098 and determined that FISCSI Det Bahrain did not properly mark the e-mails.
One e-mail contained “derived from” and “declassify on” information. However, Navy
personnel did not properly mark the forwarding e-mails. In addition, we could not
determine whether the Navy personnel on the e-mails sent them on a secure network.

Access to Classified Information
FISCSI Det Bahrain has many foreign nationals working in its contracting office.
Because the documents we found were marked “Confidential/NOFORN,” foreign
nationals should not have access to these documents. In the contract file for N49400-04-
H-A501-6098, we found modifications signed by a contracting official that is a foreign
national. We determined that because a foreign national signed the contract
modifications, they had access to the classified documentation included in that file.
Therefore, the classified information is potentially compromised.




                                            4


DOD 5200.1-R states that when an actual or potential compromise of classified
information occurs, the head of the activity or activity security manager should promptly
initiate an inquiry into the incident. According to the Secretary of the Navy Manual
5510.36, “Department of the Navy Information Security Program,” June 2006, when a
compromise of classified information occurs, the commanding officer or security
manager should initiate a preliminary inquiry within 72 hours of the incident. If it is
determined during the preliminary inquiry that a compromise of classified information
occurred, the commanding officer or security manager should contact the local Naval
Criminal Investigative Service office in a timely manner. Once we notified the Officer in
Charge, FISCSI Det Bahrain that we found the classified information, he should have
initiated an inquiry into the incident and informed the Naval Criminal Investigative
Service. However, FISCSI Det Bahrain officials did not initiate an inquiry into the
incident and did not notify the Naval Criminal Investigative Service.

During our exit briefing on June 4, 2009, we again informed the Officer in Charge,
FISCSI Det Bahrain, that he needed to take action to secure this information and to
reduce the risk of future security issues.

On July 17, 2009, we issued an action memorandum to FISCSI Det Naples with a copy to
the Special Assistant for Naval Investigative Matters and Security (Appendix B). We
recommended that FISCSI Det Naples personnel initiate an inquiry into this issue in
accordance with DOD Regulation 5200.1-R and that they inform us of the actions taken
to address the issue.

On July 28, 2009, we received a memorandum from the FISCSI Det Bahrain Command
Security Officer stating that the Regional Security Director in Sigonella gave him
permission to destroy the documents because the documents were nearly 4 years old and
all of the information contained in each document is now public knowledge. The
Command Security Officer stated in the memorandum that the documents were destroyed
on July 7, 2009, in accordance with the instructions of the Regional Security Director.

Management Actions
FISCSI Det Bahrain officials took minimal action to train personnel on the proper
handling of classified information. According to the FISCSI Det Bahrain Officer in
Charge, FISCSI Det Bahrain officials are developing a policy on handling classified
information but have not scheduled any corrective training. The Officer in Charge stated
that they reviewed the two contract files containing the documents to ensure that they did
not contain classified documentation but did not check the other contract files in storage.

After we issued the action memorandum, the Special Assistant for Naval Investigative
Matters and Security, CNO, ordered a preliminary inquiry into this compromise of
information. The Special Assistant for Naval Investigative Matters and Security
determined that the preliminary inquiry completed by the FISCSI Det Bahrain Command
Security Officer was insufficient and asked the Security Officer to complete it again.




                                             5


Conclusion
We discovered classified documents that FISCSI Det Bahrain did not safeguard, which
included e-mails FISCSI Det Bahrain officials did not mark. We determined that foreign
national(s) had access to the classified documents, which constitutes a possible
compromise of classified information. FISCSI Det Bahrain must investigate this
compromise. In addition, FISCSI Det Bahrain officials should provide training on the
handling of classified information. In order to ensure that other FISCSI Det Bahrain
contract files do not contain classified documentation, FISCSI Det Bahrain personnel
should review all files that are under their control. The classified documentation we
discovered includes memoranda that CNO officials did not mark As a result, the Special
Assistant for Naval Investigative Matters and Security needs to investigate the lack of
markings on the CNO memoranda to determine why they were not marked to keep it
from happening in the future.

Management Comments on the Finding and Our
Response
Director of Contracting, Fleet and Industrial Supply Center,
Sigonella, Detachment Naples Comments
The Deputy Assistant Secretary of the Navy (Management and Budget) (DASN [M&B]),
responding for the Director of Contracting, FISCSI Det Naples, agreed with the Finding.
He stated that the classified information in the contract file was stored incorrectly and
was unnecessarily included in the contract file. The DASN (M&B) also explained that
FISCSI Det Bahrain does not award or work with classified contracts.

Our Response
We commend the DASN (M&B) for acknowledging that the classified information in the
contract file was stored incorrectly and was unnecessarily included in the contract file.
We appreciate his explanation that FICSI Det Bahrain does not award or work with
classified documents.

Recommendations, Management Comments, and Our
Response
Revised, Redirected, Renumbered, and Added Recommendations. As a result of
comments from the DASN (M&B), we revised, redirected, and renumbered draft
Recommendation 1.a. to Recommendation 2.c. We directed Recommendation 2.c to the
Director of Contracting, FISCSI Det Naples, to reflect who is responsible for performing
the investigation. We added new Recommendation 1.a directed to the Special Assistant
for Naval Investigative Matters and Security to determine the original classification
authority for the memoranda so that the original classification authority can perform a
damage assessment. In addition, because CNO issued classified memoranda, we revised
Recommendation 1.b to the Special Assistant for Naval Investigative Matters and



                                            6


Security to initiate corrective actions that will ensure that all classified information is
properly marked.

1. We recommend that the Special Assistant for Naval Investigative Matters and
Security:

   a. Determine who the original classification authority for the unmarked Chief of
Naval Operations memoranda is and coordinate with the Fleet and Industrial
Supply Center, Sigonella, Detachment Naples so the original classification authority
can conduct the damage assessment.

   b. When Recommendation 1.a is complete, initiate corrective actions to ensure
that all future classified documents are properly marked.

Special Assistant for Naval Investigative Matters and Security
Comments
The DASN (M&B), responding for the Special Assistant for Naval Investigative Matters
and Security, agreed with Recommendations 1.a and 1.b. However, the DASN (M&B)
stated that CNO provides implementing policy in the Department of the Navy. He
further stated that CNO is not responsible for conducting an investigation into the
potential compromise of classified material and determining its effect on national
security. The DASN (M&B) also stated that the original classification authority should
conduct the damage assessment.

The DASN (M&B) stated that CNO agrees with the Finding that the documents were
incorrectly marked. He further stated that CNO conducted a preliminary review of the
classified documents in question. The DASN (M&B) also stated that CNO asserted that
the classified documents in question were declassified as soon as the host nation was
notified in September 2005. In addition, he stated that on May 7, 2009, CNO generated
interim guidance across the Department of the Navy commands regarding the proper
marking of classified documents and instructed them to conduct a random sampling of
originally and derivatively generated documents. Finally, the DASN (M&B) stated that
the CNO annual Security Manager’s Seminar emphasizes proper marking of classified
documents, including e-mails.

Our Response
 We could not determine the original classification authority for the information.
According to DOD 5200.1-R, the original classification authority is responsible for
performing a damage assessment. Because CNO issued the memoranda that were not
marked, we are asking the Special Assistant for Naval Investigative Matters and Security
to determine who the original classification authority for the memoranda was so the
original classification authority can perform a damage assessment. We revised
Recommendation 1.b to initiate corrective actions once Recommendation 1.a is complete.
We request that the Special Assistant for Naval Investigative Matters and Security
provide comments on the new Recommendation 1.a and revised Recommendation 1.b.



                                               7


2. We recommend that the Director of Contracting, Fleet and Industrial Supply
Center, Sigonella, Detachment Naples ensure that the Fleet and Industrial Supply
Center, Sigonella, Detachment Bahrain:

       a. Provide training to personnel in the Fleet and Industrial Supply Center,
Sigonella, Detachment Bahrain on DOD and Navy information security policies to
ensure that personnel know how to handle classified information.

      b. Review all contract files to ensure that they do not contain classified
information.

       c. Investigate this potential compromise of classified information.


Director of Contracting, Fleet and Industrial Supply Center,
Sigonella, Detachment Naples Comments
The DASN (M&B), responding for the Director of Contracting FISCSI Det Naples,
agreed with Recommendations 2.a and 2.b. The DASN (M&B) stated that the FISCSI
Assistant Security Officer conducted training on the proper handling of classified
information and DOD and Department of the Navy information security policies on
August 10, 2009. In addition, the DASN (M&B) stated that the FISCSI Det Bahrain
Security Manager provided training on the proper handling of sensitive information on
September 15, 2009. He further stated that FISCSI Det Bahrain schedules security
training monthly and holds a security discussion during weekly meetings.

The DASN (M&B) stated that U.S. Government staff with appropriate clearances began
reviewing contract files starting with the ship repair and military exercise contracts
because they have the most potential to contain classified documentation. The DASN
(M&B) also stated that they will review all contracts starting with the most recent. He
further stated that historic contract files are properly stored and only authorized
individuals can access the files. The DASN (M&B) stated that FISCSI Det Bahrain has
two Navy reservists reviewing the contract files and requested additional support. He
also stated that FISCSI Det Bahrain target completion date for reviewing all contract files
is February 28, 2010.

In additional comments, the DASN (M&B) stated that the contracts containing the
classified memoranda were immediately stored in an approved storage location. The
DASN (M&B) also stated that FISCSI is unable to respond to the assertion that CNO
incorrectly marked the classified documentation and that the FISCSI Det Bahrain
ongoing investigation will attempt to determine at what point these documents were
stored in the unclassified contract files.

Our Response
FISCSI Det Naples should provide the results of its review of all contract files to the
DOD Office of Inspector General upon completion in February 2010. As a result of the


                                             8


DASN (M&B) comments; we revised and renumbered draft Recommendation 1.a to 2.c.
We also redirected Recommendation 2.c to FISCSI Det Naples because it is the
command’s responsibility to investigate the compromise of information. FISCSI should
also expand its investigation to include how and when the classified documentation ended
up in the contract file. We request that FISCSI Det Naples personnel provide us the
results of their investigation. We request that the Director of Contracting, FISCSI Det
Naples provide comments on Recommendation 2.c.




                                           9


Appendix A. Scope and Methodology
We conducted this performance audit from March 2009 through September 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This is the first in a series of reports on Army and Navy ship maintenance contracts. We
announced this audit in March 2009 and judgmentally selected 17 FISCSI Det Bahrain
contracts, 15 Army contracts, and 7 Naval Sea Systems Command technical instructions,
valued at $96,839,887. We selected this sample from a universe of 2,934 contracts
valued at $171,901,765. We visited FISCSI Det Bahrain in Manama, Bahrain, from May
25 to June 4, 2009. The results of the review of these contracts are not included in this
report, but follow on reports will address issues regarding these contracts.

We intend to meet the stated objective in the follow on audit projects. The scope of this
project is limited to the information security issues we discovered at FISCSI Det Bahrain.
We will issue a separate report on our review of the contract files at FISCSI Det Bahrain
in Project No. D2009-D000AS-163.002.

For this report, we reviewed classified guidelines contained in DOD Regulation 5200.1-R
and the Secretary of the Navy Manual 5510.36. We also interviewed officials at FISCSI
Det Bahrain, officials at FISCSI Det Naples, and the Special Assistant for Naval
Investigative Matters and Security.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System-Next
Generation to help choose our judgmental sample of task orders for the audit. However,
we did not rely on this data to support this Finding. Therefore, we did not perform a
reliability assessment of the computer-processed data.

Prior Coverage
No prior coverage has been conducted on classification issues in FISCSI Det Bahrain
during the last 5 years.




                                           10 

Appendix B. Action Memorandum to Fleet
and Industrial Supply Center, Sigonella,
Detachment Naples

                                                         GENERAL
                                         OEPARTMENT OF DEFENSE
                                            4()() ARMY NAVY DRIVE
                                       ARLINGTON . VIAGINIA 222Q2-47()4
                                                                                       JUL 1 7 axJ9
     MEMORM'OUM FOR DIRECTOR, FLEET Al\'O lNDUSTRlAL SUPPLY CENTER
                       SIGONELLA, NAVAL REGIONAL CONTRACTING
                       DETACHMENT, NAPLES

     SUBJECT: Information Security Issue Identified During the Audit of Army and Navy Small
              Boats Maintenance Projects (project No. D2009-DOOOAS-016J.(lOO) (U)

            • • • In accordance with DoD Regulation 52oo.I-R " Information Security Program,"
     dated January 1997, chapter 10, we are notifying Fleet and Industrial Supply Center (FISC)
     Sigonclla Naval Regional Contracting Detachment Naples about a potential compromise of
     classified information. This could present a threat to national security.

           :IIII__     Ouring fieldwork in Manama, Bahrain, from May 22 to June 5, 2009, we visited
     FISC, Bahrain to review a sample of contracting files and found classified documentation in two
     contracting files. In one file, we found an Office of the Chief of Naval Operations (CNO)
     memorandum, dated June 21, 2005, which is classified "ConfidentiaVNOFORN" with an e-mail
     attached with the same marking. The other filc also contained a CNO memorandum. FISC
     provided the files to us in an unsecure conference room and had stored them in an unsecure
     facility. In addition, third-country nationals had access to this documentation, as they had signed
     off on information in the contracting files. The Navy did not properly mark the document with a
     declassification date. We informed the Commander, FISC, Bahrain of the release of this
     information; we were not satisfied that he took appropriate action to immediately secure the
     information. DoD Regulation 52oo.1-R provides guidance on proper storage, marking, and
     investigation of the possible compromise of classified information.

            1III!__ On at least two subsequent occasions, we have requested the status of actions
     taken and have not received satisfactory answers. We recommend that FISC Sigonella Naval
     Regional Contraeting Detachment Naples initiate an inquiry into this issue in accordance with
     DoD Regulation 52oo.I-R. We request that FISC Sigonella Naval Regional Contracting
     Detaehment Naples inform us of the actions taken to address the issue.




                                   ~~       Richard B. Jolliffe
                                      Assistant Inspector General
                                  Acquisition and Contract Management

     cc: Special Assistant For Naval Investigative Matters And Security




                                                  11 

Office of the Assistant Secretary of the Navy (Research,
Development and Acquisition) Comments




                                                             THENAV Y
                                  OF F ICE OF TH E ASS IST AN T SEC RETAR Y
                               (RESE AR CH. DEVELOPMENT AND ACQUISITION )
                                            1000 NAVY PEN TAGON
                                        WASHINGTON DC 203150 - 1000


                                                                         Oc t ober 6. 2009

        MEMORANOUM FOR DEPARTMENT OF DEFENSE-INSPECTOR GENERAL
                      ARLINGTON. VIRGIN IA

        S UBJECT: Department of Defense Inspector General Draft Report ln fonnation Security
                  at the Fleet and Industrial Supply Center. Sigonella, Detachment Bahrai n
                  (Projeci No. D2009-DOOOAS-OI63.(00)

                The Department of the Navy (DoN) hereby endorses and forwards the allached
        Naval Supp ly Systems Command response to subject draft report. The response provides
        detailed comments regarding the findings and recommendations contai ned in the subject
        draft report. The Navy's response should be incorporated into the final DODIG report.

                  If you have any questions pertaining to this memo or its attac hments. please refer
        them to                                             or at ,.._...illlIIIl

                                    Click to add JPEG file
                                                           puty Assistant Secretary of the Navy
                                                          (Management and Budget)

        Attachments:
        As slated




                                                                   12
    NAVY COMMENTS TO DODIG DRAFT REPORT OF 10 SEPTEMBER 2009 

   ON INFORMATION SECURITY AT THE FLEET AND I NDUSTRIAL SUPPLY 

              CENTER, SIGONELLA DETACHMENT BAHRAIN 

                     (D2009-DOOOAS -0163 . 000) 



Finding 1: 	 Clas sified Information in the Fleet and
             I ndu strial Supply Center, Detachment Bahrain

Fleet and Industrial Supply Center, Sigonella (FISCSI),
Detachment Bahrain personnel stored classif ied documents in
unclassified files that they did not safeguard or mark properly
because FISCSI Detachment Bahrain personnel did not follow DOD
Regulations on handling classified information.   In addi t ion,
Chief of Naval Operations (CNO) officials did not properly mark
the documents with a declassification date.   As a result,
foreign nationals and other employees had access to classified
information.  Unauthorized access to c lassified documentation
can compromise national security and increase risk to the war
fighter.

DON Response: Concur. The classified memorandum was incorrectly
                    Click to add JPEG file
filed in the contract file.   This classified memorandum was not
necessary for the specific contract and did not need to be kept
in t he contract fil e. FISCSI Detachment Bahrain does not award
c lassified contracts, nor do they work with any classified
contracts.

Recommendations:

2. We recommended that the Director of Contracting, Fleet and
Industrial Supply Center $igonella Regional Naval Regional
Contracting Detachment Naples ensure that the Fleet and
Industrial Supply Center Sigonella Detachment Bahrain:

      a . Provide tra ining to personnel in the Fleet and
Industrial Supply Center Bahrain o n DOD and Navy information
security policies to ensure that personnel know how to handle
c lassified information.

DON Response : Concu r. The Fleet and I ndustria l Supply Center,
Sigonella ( FISCSI) Assistant Security Of ficer conducted training
on 10 August 2009, on the proper handling of classified
information and DOD/DON information security policies. The
FISCSI Detachment Bahrain Security Manager conduc ted training on
15 September 2009, on the proper handling of se nsitive
information . Security train i ng is scheduled monthly to stress

                                                      Enc losure ( I )




                                          13
    importance of safeguarding classified information.    In
addition, a security reminder/discussion is prov i ded during
weekly Work-In-Process (W IP) meetings. Action is considered
complete for reporting purposes.

     b. Review all contract files to ensure that they do not
contain classi fied information.

DON Response : Concur . United States Government staff (with
appropriate clearance) have started reviewing the contract
files, beginning with those with the greatest potential of
conta ining misfiled classified documents - ship repair contracts
and contracts supporting military exercises. Contracts awarded
most recently will be reviewed fir st, fol l o wed by older
contracts, until all have been reviewed.

Historic contract files in storage have been prope rly secured
and can o nly be accessed by indiv i duals with appropriate
clearance. As required, contract fi l es needing to be removed
from storage will be rev i ewed by cleared i ndividuals for
classified material before release to uncleared entities or
individuals.
                       Click to add JPEG file
FISCSI Detachment Bahrain currently has t wo u . s. Navy Reservists
assisting in the review of the contract files, and has requested
additional Reserve support for the upcoming months.     Based on
workload and the quantity of contract files in inventory, our
estimated t arget completion date f or reviewing a ll contract
files is 28 February 2010.

Additional Comments:

Upon discovery of the classified memos, the contract files were
immediately secured in an approved storage location, FISCSI
Detachment Bahrain's Secure Internet Protocol Router Network
(SIPRNET) room, which is certified to store documents up to
SECRET classification.

FISC Signonella is unable to respond to the assertions that CNO
mismarked the c lassified documents, as FISCSI is not the
Original Classifying Authority, (OCA).    The F I SCSI Detachment
Bahrain ongoing investigation will attempt to determine at what
point these c lassi fied documents were stowed in the unc l assified
contract files.




                                                      Enclosure ( I )
                           DEPART MENT OF T H E NAVY
                        OF F I CE OF THE ASSIS TANT SECRE TAR Y 

                    ( RESEARCH . DEVELOPMENT AND A COUIS ITlON ) 

                                  1000 NAVY PENTAGO N 

                               WASHINGTON DC 203t10· 1 000 



                                                             October 7, 2009

MEMORANDUM FOR DEPARTMENT OF DEFENSE-INSPECTOR GENERAL
              ARLINGTON, VIRGINIA

SUBJECT: 	 Department of Defense In spector General Dmft Report lnformat ion Security
           at the Fleet and industrial Supply Center. Sigonella. Detachment Bahrain
           (Project No. D2009-DOOOAS-O I63 .(00)

        The Department of the Navy (DoN) hereby endorses and forwards the auached
Speci al Assistant for Naval Investigative Matters & Security response to subject draft
report for recommendations I a and I b. This response is in addition to the aval Suppl y
Systems Command response prov ided by memorandum on 6 October 2009 which
addressed recommendations 2a and 2b. Together. these two responses provide detai led
comments regarding the find ings and recommendations contai ned in the subject draft
report. The Navy's response should be incorporated into the final nODIG report.

                                                 : memo or its attachments, please re fer

                                      at ! jJJ' 17
them to
                         Click to add JPEG  file
                                             . "
                                             . / /L= r ""'<'l
                                                                .        ,
                                            Ga    A. Broadwell
                                                PT, SC, USN
                                             Deput y Ass istant Secretary of the Navy
                                               (Management and Budget)

Attachments:
As staled




                                                        15
                                                                       Final Report 

                                                                        Reference






         Assistant for Naval Investigative Matters and Security
       COMMENTS TO DODIG DRAFT REPORT OF 10 SEPTEMBER 2009
   ON INFORMATION SECURITY AT THE FLEET AND INDUSTRIAL SUPPLY
               CENTER, SIGONELLA DETACHMENT BAHRAIN
                      (D2009-DOOOAS-0163.000)


Recommendations:

1. ~ We recommend that the Special Assistant for Nava l
Investigative Matters and Security:

     a . ~ Investigate this potent i al compr omise of               Revised,
information and determine its effect on national security.           Redirected, and
DON Response:  CNO (N09N) provides implementing policy within the    Renumbered
Department of the Navy. N09N is not an operational command.     It   Recommendation
is the responsibility of the cogni z ant command to conduct the      as 2.c.
investigation into the potential compromise of classified
material and determine its effect on nat i onal security, not CNO
(N09N).  Additiona lly, any damage assessment is to be conducted
by the Original Classif i cation Authority vice CNO (N09N).

     h. ~ Determine why the Chief of Naval Operations                Revised
memoranda were i ncorrectly marked and in i tiate corrective
actions.                Click to add JPEG file
DON Response: CNO (N09N) concurs with the finding that the
documents were incorrectly ma r ked however, upon receipt of the
Preliminary Inquiry from the cognizant command, the originators
are obligated to initiate corrective actions.    We conducted a
preliminary review of the documents in question that were
provided by DOD IG and it is our assertion they were declassified
as soon as notification of host nation was made in September
2005.

Additional Comments :

     We have, as r ecent l y as 7 May 2009, generated i nterim
guidance to all Department of the Navy commands regarding the
proper marking of classified documents and instructed them to
conducted a random sampling of originally and derivatively
generated documents . The proper marking of classified documents,
to include email, is emphasized during our annua l Security
Manager's Seminar.

     The recommended findings should be redirected to the Fleet
and Industrial Supply Center, Sigonella Detachment Bahrain with
oversight by Headquarters, Naval Supply Systems Command.




                                                    Enclosure (I)




                                         16
